Strategic Asset Management Program Controls Design Is Generally
             Sound, But Improvements Can Be Made


                Final Audit Report No. 105-2010


                       January 14, 2011




                      Audit Report Issued By:

          NATIONAL RAILROAD PASSENGER CORPORATION
                OFFICE OF INSPECTOR GENERAL
                       10 G STREET, N.E.
                    WASHINGTON, DC 20002
Date January 14, 2011                              From David R. Warren, Assistant IG, Audit
 To DJ Stadtler, CFO                         Department Office of Inspector General
                                                         Strategic Asset Management Program
                                                         Controls Design Is Generally Sound, But
     Ed Trainor, CIO                             Subject
                                                         Improvements Can Be Made
                                                         Report No. 105-2010
                                                      cc Jeff Martin, Chief Logistics Officer
                                                         Frank Vacca, Chief Engineer
                                                         Mario Bergeron, CMO
                                                         Kay Duggan, GIO-ERP
                                                         Don Ford, Senior ERP Director
                                                         Jessica Scritchfield, Internal Controls Officer

    Enclosed is our final report on control design issues that came to our attention while we were
    conducting the audit of Strategic Asset Management (SAM) program’s implementation efforts.
    Our audit objective was to review SAM program’s internal controls design to determine whether
    it adequately identified and mitigated internal control risks.

    Management’s response from the Amtrak Chief Financial Officer to our draft report is in the
    attached Exhibit E. Management agreed with all our recommendations and provided planned
    actions to implement our recommendations.

    Thank you for your cooperation during the course of this audit. If you have any questions, you
    can contact Vipul Doshi, Senior Director, at (202) 906-4619 or by email at doshiv@amtrak.com,
    or me at (202) 906-4742 or by email at david.warren@amtrak.com.




    ___________________________________
    David R. Warren
    Assistant Inspector General for Audit


    Attachment
       Strategic Asset Management Program Controls Design Is Generally Sound, But
                              Improvements Can Be Made
                                  Report No. 105-2010

                                 EXECUTIVE SUMMARY

                                   What OIG Found
     WHY WE CONDUCTED
         THIS AUDIT
                                   The design of the automated controls to mitigate financial risks
    Amtrak’s Strategic Asset       in the first SAM segment (R1a) to be implemented is generally
    Management (SAM)               sound. However, we found gaps in the design of the controls
    program is estimated to        that do not fully mitigate the financial and operational risks.
    cost as much as $380           These gaps put Amtrak at risk of not fully realizing the
    million. The goal is to        potential benefits from SAM. In particular, a lack of adequate
    transform key business         controls can lead to inaccurate financial reporting,
    operations such as finance     vulnerability to fraud, and inefficient business operations.
    and logistics. SAM will
    replace or enhance many        We reviewed the controls design that had been developed for
    manual and automated           24 out of 139 business processes. Overall, our work showed
    systems.                       that the controls design for the 24 business processes was
                                   generally sound. However, we found 22 areas where there
    Given SAM’s cost and           were opportunities to make improvements within those 24
    impact on business             business processes. For example,
    operations, the OIG               Journal entries will be processed manually leaving the
    reviewed the SAM                   process vulnerable to the risk of error and rework.
    program’s internal
    controls design to                Controls were not documented to avoid risk of
    determine whether it               unauthorized purchases.
    adequately identified and
                                      Controls over certain physical inventory were not in place
    mitigated internal control
                                       leaving the inventory vulnerable to undetected loss or theft.
    risks.
                                      Controls over requisitions related to closed or cancelled
                                       work orders were not in place to mitigate the risk of
    unnecessary purchases.
   Controls to identify an alternate supply source before removing a working part from one piece
    of equipment to repair nonworking piece of equipment were not in place thereby increasing the
    risk of delay in bringing the equipment back in service.

We also found that the scope of the controls design work was limited to automated controls in the
finance and materials management business areas, and it did not cover other SAM impacted
business areas of procurement, mechanical, and engineering. In addition, we found that the
manual control designs and controls designs to address operational risks have not been fully
developed for all SAM impacted business areas. Reliable financial and operational controls are
       Strategic Asset Management Program Controls Design Is Generally Sound, But
                              Improvements Can Be Made
                                  Report No. 105-2010


needed in all affected business areas to ensure reliable financial reporting and efficient business
operations; and to prevent fraud.

In summary, we are recommending that Amtrak: 1) complete certain automated control design
tasks before the April 2011 R1a implementation, and 2) expand the scope of the control design
process to include controls that fully address financial and operational risks in all affected business
areas.

In commenting on a draft of this report, management agreed with all our recommendations and has
assigned responsibilities to appropriate individuals to take timely actions to address our
recommendations. While management has expressed some concern about resource constraints,
they are exploring various options to implement our recommendations. We are encouraged by
management’s planned actions, and commitment to improve internal controls. If properly
implemented, the actions identified by management address our recommendations.
            Strategic Asset Management Program Controls Design Is Generally Sound, But
                                   Improvements Can Be Made
                                       Report No. 105-2010

                                                            TABLE OF CONTENTS

BACKGROUND ................................................................................. 1

RESULTS OF AUDIT ........................................................................ 3

       OPPORTUNITIES EXIST TO IMPROVE THE CONTROLS DESIGN PROCESS . . . . . 3

              Most Control Designs Reviewed Were Sound, But Some Can Be Improved . . . . . . . . . . . . . . . 3

              The Scope Of The SAM Controls Design Process Effort Is Not Comprehensive . . . . . . . . . . . 7

CONCLUSION .................................................................................. 9

R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

M A N A G E M E N T C O M M E N T S A N D A U D I T R E S P O N S E . . . . . . . . . . . . . . . . . . . . . . . 11

E X H I B I T A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

   Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

E X H I B I T B . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

   OIG Analysis of SAM R1a Control Weaknesses and Recommendations . . . . . . . . . . . . . . . . . . . . 15

E X H I B I T C . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

     Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

E X H I B I T D . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

   Audit Team Members . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

E X H I B I T E . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

   Management Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

E X H I B I T F . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

   OIG Mission and Contact Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
       Strategic Asset Management Program Controls Design Is Generally Sound, But
                              Improvements Can Be Made
                                  Report No. 105-2010


                                           BACKGROUND


In 2008, Amtrak launched a company-wide, multi-year effort called the Strategic Asset
Management (SAM) program to transform key operational, financial, supply chain, and human
resource processes by replacing or enhancing many of its manual and automated systems with
new systems and business processes. The critical automated systems in the new environment will
be SAP Enterprise Resource Planning (ERP) 1 , Maximo Asset Management 2 , and Ariba 3
software. The Enterprise Strategic Systems Steering Committee (ESSSC) consisting of senior
executives provides strategic guidance to the SAM program, and key program decisions are
guided by the three Sponsors, i.e. Chief Financial Officer (CFO), Chief Operating Officer
(COO) 4 and Chief Information Officer (CIO). Amtrak officials estimate that the SAM program
will cost up to $380 million.

The program’s overall objective is to transform key operations and systems of the company; to
implement best practices; integrate business processes; and provide timely information for
financial reporting, management decision-making, and optimum operations performance. The
program is anticipated to also help Amtrak meet the accounting requirements mandated by the
Passenger Rail Investment and Improvement Act of 2008 (PRIIA) 5 . Another envisioned benefit
from SAM is improving the information flow and provide better information for decision-
making by breaking down information-sharing barriers among departments.

Amtrak program documents show that the SAM program is divided into three distinct
implementation segments. SAM is currently in the first segment, generally referred to as Release
1a or R1a. The R1a segment will reengineer business processes and provide new automated
capabilities for most finance and materials management business processes using SAP and


1
  SAP (ERP) software can process enterprise-wide data from various business areas such as finance, procurement,
  payroll, and sales and distribution. Amtrak’s human resources and payroll functions are currently processed in
  SAP. SAM Release 1a will add most of the finance and materials management functions in SAP.
2
  Maximo Asset Management software unifies comprehensive asset life cycle and maintenance management on a
  single automated database. Amtrak’s Engineering department is using Maximo to manage Amtrak’s rail
  infrastructure.
3
  Ariba software specializes in many procurement business functions, such as spend management, contract
  management and supplier management. Amtrak is currently using Ariba for purchase requisitioning, travel and
  expense, procurement cards, and payment requests.
4
  Amtrak abolished the position of Chief Operating Officer (COO) effective October 22, 2010.
5
  Public Law No. 110-432, Division B, enacted on October 16, 2008.




                                                        1
       Strategic Asset Management Program Controls Design Is Generally Sound, But
                              Improvements Can Be Made
                                  Report No. 105-2010

PowerPlant 6 software. These are critical business activities for Amtrak. In FY 2009, Amtrak
financial activities included $3.5 billion in expenses and $2.35 billion in revenues. These systems
will control financial reporting of revenues and expenses. On September 30, 2009, Materials
Management was responsible for $184 million in materials and supplies. Likewise these systems
will be controlling reporting and management of this inventory. The R1a segment will also
enhance procurement work process capabilities using existing Ariba software. The SAM R1a
segment is scheduled to be implemented in April 2011.

In July 2008, Amtrak contracted with Accenture LLP (“Accenture”) to support the SAM R1a
implementation 7 . With Accenture’s support, Amtrak developed Business Process Definition
(BPD) documents for all business processes impacted by the SAM R1a segment. The purpose of
a BPD is to document existing or reengineered business processes so that manual and automated
systems can be designed and configured accordingly. Among other things, each BPD provides
flowcharts, risk and control objectives, and Key Performance Indicators (KPIs) 8 . Accenture
subcontracted the internal controls design work to Protiviti Inc. (“Protiviti”) to review BPDs,
identify risks in the process design, and develop controls to mitigate the risks. The purpose of the
internal controls design work is to help ensure that financial reporting is accurate; and efficient
and effective business operations are achieved.

System controls are typically described as financial that ensure the accuracy of financial data, or
operational that ensure the efficiency and effectiveness of business operations. This audit focuses
on the adequacy of the process for designing financial and operational controls for the SAM
program.

In early 2011, we will report the results of our overall audit of SAM strategic planning and
program management.

Objective

The reporting objective for this report is to review the SAM program’s internal controls design to
determine whether it adequately identified and mitigated internal control risks. To review the
adequacy of controls design, we reviewed the list of BPDs that were developed for SAM R1a

6
  PowerPlant software will record and manage transactions related to Amtrak’s assets. Amtrak bought PowerPlant
  software because of its capability in group depreciation. PowerPlant will apply depreciation to Amtrak’s assets
  and pass asset valuation to SAP for recording.
7
  The contract between Amtrak and Accenture LLP was signed on July 8, 2008.
8
  Key Performance Indicators (KPIs) are different performance metrics to help evaluate the performance of a
   process.




                                                         2
      Strategic Asset Management Program Controls Design Is Generally Sound, But
                             Improvements Can Be Made
                                 Report No. 105-2010

and assessed their criticality based on the business processes being addressed. For our detailed
analysis, we selected a judgmental sample of 24 out of the 139 critical business processes, as of
November 8, 2010. We made this judgment based on our discussions with the process owners
and SAM subject matter experts (SMEs), our professional knowledge, and opportunities to
implement industry best practices.

For a detailed discussion of the audit scope and methodology, see Exhibit A. For OIG analysis of
SAM R1a control weaknesses and recommendations, see Exhibit B. For a list of acronyms used,
see Exhibit C. For the audit team members, see Exhibit D. For management response, see Exhibit
E. For the Amtrak OIG Mission and Contact Information, see Exhibit F.




                                 RESULTS OF AUDIT

OPPORTUNITIES EXIST TO IMPROVE THE CONTROLS DESIGN PROCESS

The design of the automated controls to cover financial risk related to the R1a segment, which
involves implementing SAP and PowerPlant, is generally sound. However, certain gaps in the
design process will prevent Amtrak from fully realizing the potential benefits from improving
the efficiency and effectiveness of business operations. Further, unaddressed control weaknesses
leave Amtrak vulnerable to business operation breakdowns that could adversely affect operating
expenses and revenues. We identified opportunities to improve existing controls, and expand the
scope of the control design process to include manual controls and controls to address
operational risks in all affected business areas. If effectively implemented, these control
recommendations should improve data reliability and integrity, and help reduce operating costs.


Most Control Designs Reviewed Were Sound, But Some Can Be Improved.

Overall, our work showed that the controls design for the 24 BPDs we reviewed was generally
sound. However, we found instances where the review could have been more comprehensive.
We identified opportunities to improve controls in 22 areas within these 24 business processes.
These areas for improvement address both financial and operational risks. We categorized 5 of
the areas as high risk and 17 as medium risk. We categorized the risk based on the likelihood and
impact of a control failure on business operations.




                                                3
       Strategic Asset Management Program Controls Design Is Generally Sound, But
                              Improvements Can Be Made
                                  Report No. 105-2010

Specifically, control failures could potentially leave Amtrak vulnerable to inaccurate financial
reporting and business operation interruptions that could adversely affect operating expenses and
revenues.

The five high-risk control weaknesses identified include:
       Manual journal entries (Financial Risk). In one case, the manual processing of
        financial journal entries does not provide adequate accountability and reliability over the
        creation, approval, and accuracy of journal entries. Currently, journal entries are created
        on paper and approved using emails before they are entered into the existing financial
        system, the Financial Information System (FIS). This process will continue to be the
        same except that the journal entries will be manually entered into SAP. Manual entries
        increase the risk of unauthorized entries. Automated approval and posting of journal
        entries is a best practice to reduce the risk of error and rework.

       Controls were not documented for certain procurement activities (Financial Risk).
        In three cases, controls were not documented to ensure that the approval hierarchy in
        Ariba for new or modified procurement contracts and purchase orders was correctly
        configured. Also, controls were not documented to ensure that only authorized personnel
        can have access to create and maintain purchase orders. If such controls are not
        documented and tested, the approval hierarchy may not be correctly configured to ensure
        that purchase orders are approved according to Amtrak’s “Purchase, Expenditure, and
        Control Approval Authorizations policy 11.39.0.” This creates a risk of unauthorized
        purchases.

       Control was not documented related to periodic review of physical inventory
        (Financial Risk). In one case, control was not documented to ensure periodic review of
        the physical inventory list to identify locations where inventory counting was not
        performed. The value of the physical inventory held by the business may be misstated if
        there is a difference between the book and the physical inventory values. Inaccurate
        records also leave the inventory vulnerable to undetected loss or theft.

The seventeen medium-risk control weaknesses identified include:
       Physical and book inventory may not be reconciled in a reasonable time (Financial Risk).
        Untimely reconciliation increases the risk of undetected inventory loss or theft, and may
        result in inappropriate modification of recorded counts of physical inventory and




                                                 4
          Strategic Asset Management Program Controls Design Is Generally Sound, But
                                 Improvements Can Be Made
                                     Report No. 105-2010

           incorrect inventory valuation. We previously reported on this issue in Amtrak OIG Audit
           Report, #217-2008 "Annual Maintenance of Way Inventory" dated December 23, 2008.

          Requisitions corresponding to closed or cancelled work orders are not being deleted in
           Spear 9 (Operational Risk). If requisitions are not deleted in a timely manner, Amtrak
           could make unnecessary purchases.

          Completed work orders in Maximo may not be closed in a timely manner (Operational
           Risk). Open, completed work orders reserve unused inventory that can be used on other
           work orders. This may cause Amtrak to procure unnecessary materials.

          No requirement exists to periodically review reports so that a sufficient quantity of
           materials is available when needed (Operational Risk). Without this control, cars and
           locomotives can remain out of service for extended time, thus reducing operating
           efficiency and effectiveness.

          There is no established timeframe for quality inspection of materials received into
           inventory (Operational Risk). Materials remaining in quality inspection for unnecessarily
           long periods of time can delay maintenance.

          Repair and return transactions may not be appropriately configured (Financial Risk).
           Inventory value in the General Ledger will be misstated if inventory is not recorded or is
           recorded incorrectly.

          Before removing a working part from one piece of equipment to repair another, alternate
           sources of inventory parts may not be identified and work orders may not be created to
           replenish the removed part (Operational Risk). Removing parts is a more costly process
           than using inventory stock, and increases maintenance personnel costs. It can result in
           breakage during the removal process, and can cause delays in bringing the originally
           working equipment back in service.

          Problematic invoices that are held for payment may not be processed in a timely manner
           (Operational Risk). Late payment of invoices will result in penalties.



9
    Spear is the asset management software to help manage maintenance of train cars and locomotives. Amtrak’s
    Mechanical department is using Spear to record maintenance of train equipments.




                                                         5
         Strategic Asset Management Program Controls Design Is Generally Sound, But
                                Improvements Can Be Made
                                    Report No. 105-2010

         Controls to help identify duplicate and fictitious vendors and vendor invoices are weak
          (Financial Risk). A weak control in this area leaves the company vulnerable to duplicate
          payments and undetected fraud.

         Control is not documented to ensure that invoices for service purchase orders over
          $10,000 will not be paid until approved (Financial Risk). If business process design
          documents are not written clearly and consistently, the desired controls may not be
          implemented or implemented incorrectly.

     Table 1 below summarizes the 22 control weaknesses we identified by type, business area,
     high (H) and medium (M) risk level, and financial (F) and operational (O) impact. During the
     audit, we discussed the results of our work with responsible Amtrak officials. As a result,
     SAM implementation team members have either taken or are taking actions to address some
     of the concerns we raised.

               Table 1 – Control Weaknesses by Control Type, Business Area, and Risk

                                                                  Business Areas *
 Control Type                                                                                Total by           Total
                           FI       MM               PR                ME           EN
                                                                                             risk level      by impact
Automated              H        M    H    M     H         M       H     M       H     M      H      M         F      O
Configuration          1        5    0     1     2        0        0        2   0        0   3        8       8          3
10

Sensitive              0        0    0     0     1        0        0        0   0        0   1        0       1          0
Access 11
Manual
Detective 12           0        1    1     2     0        0        0        1   0        1   1        5       2          4
Process 13             0        0    0     2     0        1        0        1   0        0   0        4       1          3
Total                  1        6    1     5     3        1        0        4   0        1   5        17      12         10
                                                                                    Total        22                 22
* FI=Finance, MM=Materials Management, PR=Procurement, ME=Mechanical, EN=Engineering,
 H=High Risk, M=Medium Risk, F=Financial Risk, O=Operational Risk

Source: OIG analysis of Amtrak data


10
   Configuration controls ensure that the application is set up appropriately to achieve the required capability.
11
   Sensitive Access controls ensure that sensitive transactions are accessed only by authorized individuals.
12
   Detective controls detect errors and irregularities that could not be prevented but can be rectified.
13
   Process controls ensure that manual business processes are designed correctly to provide desired outputs.




                                                              6
       Strategic Asset Management Program Controls Design Is Generally Sound, But
                              Improvements Can Be Made
                                  Report No. 105-2010

For details on the 22 control weaknesses we found and our specific recommendations to address
them, see Exhibit B.


The Scope Of The SAM Controls Design Process Effort Is Not Comprehensive.

We also analyzed the overall scope of the SAM R1a internal controls design work for all
business processes impacted by SAM. We found that the scope of the SAM Controls team was
limited to designing automated controls to address financial risks in the business areas of finance
and materials management, and it did not include designing controls for the other impacted
business areas of procurement, mechanical and engineering. In addition, we found that the
manual control designs (detective and process controls) and controls designs to address
operational risks have not been fully developed for all impacted business areas, i.e. finance,
materials management, procurement, mechanical and engineering.

While there are 38 systems that will interface with SAP as part of the SAM R1a segment, the
following are key systems for the impacted business areas:
     SAP and PowerPlant for finance
     SAP for materials management
     Ariba for procurement
     Spear for mechanical
     Maximo for engineering


The weaknesses we identified are described below and summarized in Table 2 on page 9:

Controls Coverage to Address Financial Risks
       Automated controls are designed to address financial risks in SAP, Maximo, and
        PowerPlant. SAM is adding or changing the business processes in Ariba, Maximo,
        and Spear. However, no plans exist to document and test automated controls to
        address financial risks in Ariba and Spear for the new processes created by SAM.
        Integrity of information in multiple software programs cannot be ensured if controls
        within all impacted software are not documented and tested. For example, SAM is
        developing an automated approval workflow in Ariba for procurement contracts and
        purchase orders, which are currently approved manually. Inappropriate configuration of
        approval hierarchy in the Ariba software can result in costly unauthorized purchases and
        can create vulnerability to fraud.




                                                 7
           Strategic Asset Management Program Controls Design Is Generally Sound, But
                                  Improvements Can Be Made
                                      Report No. 105-2010

           While manual detective controls have been designed, manual process controls have
            not been designed for finance and materials management business areas. Also, both
            manual detective and manual process controls have not been designed for the new
            processes developed in procurement, engineering and mechanical business areas.

Controls Coverage to Address Operational Risks
           Neither automated nor manual controls have been designed to cover operational
            risks in any of the systems impacted by SAM. Such controls help to ensure the
            efficiency and effectiveness of business operations. For example, controls were designed
            to ensure that invoices are paid accurately; however, no control was designed to ensure
            that materials do not remain in quality inspection for extended periods delaying
            maintenance activities. Designing controls to ensure management action on Key
            Performance Indicators (KPIs) 14 listed in the BPDs to monitor operational efficiency
            were not in the scope of the SAM Controls team. Such controls are key tools in helping to
            control and reduce operating costs.

Controls Coverage of Current Capability in Existing Systems
           Current business processes in the existing systems were not reviewed to ensure that
            adequate automated and manual controls are in place to maintain data integrity
            and reliability across SAM impacted business areas. Existing systems may already
            have the desired controls in place; however, no review has been made to determine the
            extent to which controls have been documented.

Table 2 below shows the areas not covered by the SAM internal controls design process.




14
     For example, On Time Delivery/Cycle Time is a ratio of the number of deliveries that arrived on or before the
     delivery date compared to the number of deliveries for a given period.




                                                            8
        Strategic Asset Management Program Controls Design Is Generally Sound, But
                               Improvements Can Be Made
                                   Report No. 105-2010

           Table 2 – Analysis of the extent to which controls have been designed or reviewed

                                                                         Existing Systems
                                New Systems
                                                           (i.e. Procurement, Mechanical, Engineering)
          Controls           (Finance, Materials
                                                             New capability               Current
                                Management)
                                                             added by SAM               capability+
    Automated Controls (Configuration, Sensitive Access, Segregation of Duties)
    Financial Risk               Designed                  Not Designed ++              Not Reviewed
    Operational Risk          Not Designed                   Not Designed               Not Reviewed
    Manual Controls (Detective and Process)
                             Only Detective
    Financial Risk                                           Not Designed               Not Reviewed
                            Controls Designed
    Operational Risk           Not Designed                  Not Designed               Not Reviewed
+  The SAM Controls team was not tasked to review the controls. Existing systems may already have the desired
   controls in place; however, controls may not be consistently documented.
++ The SAM Controls team identified some risks. Business process owners were responsible for controls, but have
   not designed them. Automated controls to address financial risks in Maximo are being developed.
Source: OIG analysis of Amtrak data

Last, we noted that although controls to avoid segregation of duties issue will be built in SAP,
there are no plans to ensure that users’ combined access permissions in SAP, Ariba, Maximo,
and other systems do not give them the ability to process inappropriate transactions. For
example, a user can potentially have access to receive non-inventory items in Ariba and enter an
invoice for payment in SAP.



                                            CONCLUSION

Design of automated controls in SAP and PowerPlant to cover financial risk is generally sound.
However, certain gaps in the design process leave Amtrak vulnerable to not fully realizing the
potential benefits from SAM to provide for efficient and effective business operations. Further,
control failures could potentially leave Amtrak vulnerable to business operation deficiencies that
could adversely affect operating expenses and revenues. Opportunities exist to improve existing
controls and expand the scope of control design efforts to other systems. These opportunities, if
effectively implemented, should improve data reliability and integrity, and help reduce operating
costs.




                                                       9
          Strategic Asset Management Program Controls Design Is Generally Sound, But
                                 Improvements Can Be Made
                                     Report No. 105-2010

                                      RECOMMENDATIONS

The OIG recommends that the SAM program sponsors take the following actions:

1. Prior to the April 2011 SAM R1a implementation:

       a) Address the control weaknesses to mitigate financial and operational risks identified in
          this report related to the SAM R1a implementation (See Exhibit B).

       b) Reevaluate the other 115 BPDs to determine and implement the automated controls to
          address financial and operational risks similar to the issues we identified that need to be
          addressed in SAP, PowerPlant, Maximo, Ariba, and Spear.

2. After SAM R1a is implemented:

       a) For new capability: Evaluate all 139 BPDs to determine and implement the manual
          controls to address financial and operational risks in SAP, PowerPlant, Maximo, Ariba,
          and Spear.

       b) For current capability: Review automated and manual controls in i) key systems impacted
          by SAM, i.e. SAP, Ariba, Spear, and Maximo and ii) other relevant existing systems such
          as SupplyPro 15 and Labor Management System(LMS) 16 that interface with SAP. Identify
          gaps; and develop and document the missing controls to ensure that critical financial and
          operational risks are addressed.

       c) Build a comprehensive Risk and Controls matrix to ensure segregation of duties between
          multiple applications, such as SAP, Maximo, and Ariba.




15
     SupplyPro is an automated material vending machine system used for self-service by mechanics.
16
     Labor Management System (LMS) is used for scheduling and time management of train crew.




                                                         10
      Strategic Asset Management Program Controls Design Is Generally Sound, But
                             Improvements Can Be Made
                                 Report No. 105-2010

      MANAGEMENT COMMENTS AND AUDIT RESPONSE


In commenting on a draft of this report, management agreed with all our recommendations and
has assigned responsibilities to appropriate individuals to take timely actions to address our
recommendations. While management has expressed some concern about resource constraints,
they are exploring various options to implement our recommendations. We are encouraged by
management’s planned actions, and commitment to improve internal controls. If properly
implemented, the actions identified by management address our recommendations.




                                              11
         Strategic Asset Management Program Controls Design Is Generally Sound, But
                                Improvements Can Be Made
                                    Report No. 105-2010

                                           EXHIBIT A
                                      Scope and Methodology

We conducted this performance audit in accordance with the generally accepted government
auditing standards (GAGAS). These standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

We started our fieldwork in May 2010 and completed our review in September 2010. We used
the following scope and methodology in conducting this audit.

We reviewed the internal controls design for manual and automated systems being developed in
SAM R1a implementation segment. To evaluate the control design process used to develop
controls for the business processes affected by SAM R1a implementation, we used the following
methodology:

We judgmentally selected 24 Business Process Definition (BPD) documents for detailed review.
Our objective was to determine the adequacy of the control design for these BPDs. Specific
review steps included:

     We reviewed the list of BPDs 17 that were developed for SAM R1a and judged their criticality
      by the business processes addressed in the BPDs.
     We requested SAM subject matter experts (SMEs) and business owners to suggest BPDs that
      should be reviewed based on their criticality to business operations and financial impact.
     Using the above information and our professional judgment, we selected a sample of 24
      critical business processes out of 139 (as of November 8, 2010) for detailed review.

SAM R1a implementation is primarily impacting finance and materials management processes;
and as a result, our review focused on the processes in these business areas. We reviewed
procurement, mechanical, and engineering process BPDs for risks introduced due to the changes
brought about by SAM. The BPDs we reviewed are listed below, and the weaknesses we
identified are presented in Exhibit B.


17
     Most of the BPDs we reviewed were completed and well documented; however, some were still in draft form
    even though the project had moved from the design to build phase.




                                                        12
       Strategic Asset Management Program Controls Design Is Generally Sound, But
                              Improvements Can Be Made
                                  Report No. 105-2010

Finance                                                Materials Management

1.   Maintain Asset Adjust, Transfer, Add, Edit         6.   Repair and Return
2.   Create and Maintain Vendor Master                  7.   Physical Inventory and Cycle Count
3.   Mange Returned Payments                            8.   Manage Material Requisition
4.   Process Journal Entry                              9.   Goods Receipt
5.   Manage Blocked Invoices                           10.   Picking and Issue
                                                       11.   Manage Replenishment/Forecast
                                                             Demand


Procurement                                            Mechanical

12. Planning for Sourcing                              20. Distribute and Apply Materials
13. Create Purchase Order                              21. Record Resource Consumption
14. Create Contract
15. Contract Administration
16. Goods Receipt of Non-Inventory
17. Purchase Requisition Processing
18. P-Card Payment Request
19. Automatic Generation of Purchase Orders


Engineering

22. Work Order Completion
23. Time Compliance
24. Work Actuals


We evaluated the overall scope of the internal controls design work by:

    interviewing business process owners, SAM SMEs, and the SAM Controls team.
    comparing the scope of control work performed by the SAM Controls team with the business
     areas impacted by SAM.

We reviewed prior OIG audit reports to verify whether audit recommendations and
management’s commitments to implement audit recommendations are being addressed, to the
extent possible, during SAM R1a implementation. We reviewed the following applicable audit
reports issued by the OIG:




                                                  13
      Strategic Asset Management Program Controls Design Is Generally Sound, But
                             Improvements Can Be Made
                                 Report No. 105-2010

   Improvements Needed in Vendor Repair and Return Process, Audit Report No. 104-2008,
    03/23/2010
   Annual Maintenance of Way Inventory, Audit Report No. 217-2008, 12/23/2008
   Procurement Card Review, Audit Report No. 206-2008, 09/30/2008
   eTrax Application Review, Audit Report No. 104-2004, 02/23/2006

Last, we interviewed the SAM Technical team, SAM Controls team, and SAM Program
Management team to identify plans to build controls to avoid segregation of duties between
multiple applications.


Use of Computer-processed Data
We did not use computer-processed data for the review of SAM R1a internal controls design.


Internal Controls
The objective of this audit was to review SAM program’s internal controls design to determine
whether it adequately identified and mitigated internal control risks.




PPENDIX - MANAGEMENT’S RESPONSE




                                              14
                  Strategic Asset Management Program Controls Design Is Generally Sound, But Improvements Can Be Made
                                                         Report No. 105-2010

                                                                 EXHIBIT B
                                        OIG Analysis of SAM R1A Control Weaknesses and Recommendations
    Business
#   Area       Business Process       Control Weakness / Recommendation / Potential Adverse Effect                                                   Risk Level   Control Type     Impact
1   Finance    Perform GL             Control weakness:                                                                                                 High      Configuration   Financial
               Accounting             Journal Entry Attestation forms and corresponding supporting documents are
                                      processed manually, approved via emails, and stored outside SAP. This process
                                      provides less reliability and accountability to the posted Journal Entries and spotty
                                      audit trail.

                                      Recommendation:
                                      After SAM R1a Implementation
                                      - Develop journal entry form and approval workflow for electronic approval of journal
                                      entries in Ariba. Maintain supporting documentation for all journal entries in Ariba
                                      and develop interface between Ariba and SAP to automatically post approved journal
                                      entries in SAP; or
                                      - Develop approval workflow in SAP and use SAP for creation, approval and
                                      documentation of journal entries.

                                      Potential adverse effect:
                                      Unauthorized journal entries are posted. Also, manual journal entries increase the risk
                                      of error and rework.

2   Materials  Manage Warehouse       Control weakness:                                                                                                  High       Detective     Financial
    Management                        No control documented to periodically review the Physical Inventory list to identify
                                      locations where inventory counting has not been performed.

                                      Recommendation:
                                      Document the control, and identify the frequency of the review and the user role
                                      responsible for performing the review.

                                      Potential adverse effect:
                                      When the physical inventory is not counted on a cyclical basis, the value of physical
                                      inventory held by the business may be misstated if there is a difference between the
                                      book inventory and the physical inventory. Inaccurate records also leave the inventory
                                      vulnerable to undetected loss or theft.




                              Source: The analysis is based on the OIG's review of 24 BPDs and discussion with SAM Controls team, SAM SMEs, and business owners


                                                                                            15
                    Strategic Asset Management Program Controls Design Is Generally Sound, But Improvements Can Be Made
                                                           Report No. 105-2010

                                                                    EXHIBIT B
                                           OIG Analysis of SAM R1A Control Weaknesses and Recommendations
    Business
#   Area          Business Process       Control Weakness / Recommendation / Potential Adverse Effect                                                   Risk Level   Control Type    Impact
3   Procurement   Manage Award           Control weakness:                                                                                                  High     Configuration   Financial
                                         No control activity documented to ensure that the approval hierarchy is configured in
                                         compliance with Amtrak's "Purchase, Expenditure, and Control Approval
                                         Authorizations policy 11.39.0" for procurement contracts and purchase orders.

                                         Recommendation:
                                         Document and test the control.

                                         Potential adverse effect:
                                         Inappropriate approval levels can result in unauthorized purchases violating Amtrak's
                                         policy.

4   Procurement   Manage Award           Control weakness:                                                                                                  High     Configuration   Financial
                                         No control activity documented to ensure that Purchase Orders (PO) go through the re-
                                         approval process whenever approved POs are modified due to (a) change in
                                         commodity or (b) increase in PO amount above the PO modifier's authority limit.

                                         Recommendation:
                                         Document and test the control.

                                         Potential adverse effect:
                                         Inappropriate approval levels can result in unauthorized purchases violating Amtrak's
                                         policy.




                                 Source: The analysis is based on the OIG's review of 24 BPDs and discussion with SAM Controls team, SAM SMEs, and business owners


                                                                                               16
                    Strategic Asset Management Program Controls Design Is Generally Sound, But Improvements Can Be Made
                                                           Report No. 105-2010

                                                                    EXHIBIT B
                                           OIG Analysis of SAM R1A Control Weaknesses and Recommendations
    Business
#   Area          Business Process       Control Weakness / Recommendation / Potential Adverse Effect                                                   Risk Level    Control Type      Impact
5   Procurement   Manage Award           Control weakness:                                                                                                  High     Sensitive Access   Financial
                                         While the SAM program is building user security to restrict access, control to ensure
                                         that the access to create and maintain Purchase Orders in Ariba is restricted to
                                         authorized personnel is not documented.

                                         Recommendation:
                                         Implement, document and test the control.

                                         Potential adverse effect:
                                         Amtrak can buy unnecessary or inappropriate materials and services if purchase orders
                                         are entered or modified by unauthorized personnel.

6   Finance       Manage Master Data     Control weakness:                                                                                                Medium      Configuration     Financial
                                         Control to identify duplicate vendors using fields Vendor Name and City is weak
                                         because these two fields will not detect unique cases of duplicate vendors.

                                         Recommendation:
                                         Change the search criteria to include fields such as Social Security Number (SSN), Tax
                                         ID number, and Bank numbers (bank routing and account number) to detect duplicate
                                         vendors.

                                         Potential adverse effect:
                                         Duplicate vendors may potentially result in duplicate payment of invoices.




                                 Source: The analysis is based on the OIG's review of 24 BPDs and discussion with SAM Controls team, SAM SMEs, and business owners


                                                                                               17
                 Strategic Asset Management Program Controls Design Is Generally Sound, But Improvements Can Be Made
                                                        Report No. 105-2010

                                                                 EXHIBIT B
                                        OIG Analysis of SAM R1A Control Weaknesses and Recommendations
    Business
#   Area       Business Process       Control Weakness / Recommendation / Potential Adverse Effect                                                   Risk Level   Control Type     Impact
7   Finance    Manage Master Data     Control weakness:                                                                                                Medium       Detective      Financial
                                      Control to review all changes to vendor master accounts needs to be strengthened. The
                                      review of vendor master accounts does not include detecting vendors with the PO Box
                                      number listed as their only address to determine if the vendors are not fictitious.

                                      Recommendation:
                                      Strengthen the existing control, and identify the frequency of the review and the user
                                      role responsible for performing the review.

                                      Potential adverse effect:
                                      Amtrak can potentially make payment to fictitious vendors.
8   Finance    Manage AP              Control weakness:                                                                                                Medium     Configuration   Operational
                                      Vendor Invoice Management (VIM) tool will scan the vendor invoices and detect
                                      invoice exceptions such as invalid data, duplicate invoices, vendor name issues, and
                                      Purchase Order issues. If exceptions are found, invoices will be blocked for payment
                                      until the users responsible for resolving the block reason take appropriate actions to
                                      unblock the invoices. We did not find a control to ensure that blocked invoices
                                      approaching payment due dates are proactively reviewed by the users to prevent
                                      penalties for late payment.

                                      Recommendation:
                                      Implement, document and test the control to ensure that VIM sends automatic
                                      reminders to the users responsible for resolving issues with blocked invoices, at
                                      defined intervals before the invoice due date.

                                      Potential adverse effect:
                                      Late payment of invoices will result in penalties.




                              Source: The analysis is based on the OIG's review of 24 BPDs and discussion with SAM Controls team, SAM SMEs, and business owners


                                                                                            18
                 Strategic Asset Management Program Controls Design Is Generally Sound, But Improvements Can Be Made
                                                        Report No. 105-2010

                                                                 EXHIBIT B
                                        OIG Analysis of SAM R1A Control Weaknesses and Recommendations
    Business
#   Area       Business Process       Control Weakness / Recommendation / Potential Adverse Effect                                                   Risk Level   Control Type    Impact
9   Finance    Manage AP              Control weakness:                                                                                                Medium     Configuration   Financial
                                      Control to check for duplicate vendor invoices in SAP is too restrictive and may not
                                      identify all cases of duplicate invoices. The control will identify duplicate invoices
                                      only if all six fields - namely Vendor, Invoice Amount, Currency Code, Company
                                      Code, Invoice Reference Number and Invoice Date - match.

                                      Recommendation:
                                      Since VIM will provide three duplicate invoice checks with combination of different
                                      fields including Invoice Reference Number and Invoice Date, we recommend that the
                                      existing control to identify potential duplicate invoices in SAP be strengthened by
                                      setting the check only on Vendor, Invoice Amount, and Currency Code fields.

                                      Potential adverse effect:
                                      Duplicate invoices may not be detected.

10 Finance     Manage AP              Control weakness:                                                                                                Medium     Configuration   Financial
                                      Control to ensure that the critical details on vendor invoices are entered in SAP needs
                                      strengthening. Currently documented control does not require Invoice Reference
                                      Number from vendor invoices to be present and entered in SAP.

                                      Recommendation:
                                      Strengthen the existing control to include Invoice Reference Number as required field
                                      during data entry of the vendor invoices in SAP.

                                      Potential adverse effect:
                                      VIM duplicate invoice check functionality uses Invoice Reference Number along with
                                      other fields to search for duplicate invoices. If Invoice Reference Number field has no
                                      value, VIM will not effectively detect all potential duplicate invoices.




                              Source: The analysis is based on the OIG's review of 24 BPDs and discussion with SAM Controls team, SAM SMEs, and business owners


                                                                                            19
                 Strategic Asset Management Program Controls Design Is Generally Sound, But Improvements Can Be Made
                                                        Report No. 105-2010

                                                                 EXHIBIT B
                                        OIG Analysis of SAM R1A Control Weaknesses and Recommendations
    Business
#   Area       Business Process       Control Weakness / Recommendation / Potential Adverse Effect                                                   Risk Level   Control Type     Impact
11 Finance     Manage AP              Control weakness:                                                                                                Medium     Configuration    Financial
                                      Per interviews with the SAM team, invoices for Service POs over $10,000 will be
                                      blocked for payment until the service receiver approves the invoice; however, this
                                      control is not clearly and consistently documented in the Finance and Procurement
                                      BPDs, and is not documented in the Risk and Controls Index.

                                      Recommendation:
                                      Update all relevant Finance and Procurement BPDs, document the control in the Risk
                                      and Controls Index, and test the control.

                                      Potential adverse effect:
                                      Desired controls may not be implemented or implemented incorrectly if business
                                      process design documents are not written clearly and consistently.

12 Materials  Manage Order            Control weakness:                                                                                                Medium       Detective     Operational
   Management                         No control documented to periodically review the Core Tracking Report to monitor the
                                      return of damaged parts sent to Operations for repair.

                                      Recommendation:
                                      Document the control, and identify the frequency of the review and the user role
                                      responsible for performing the review.

                                      Potential adverse effect:
                                      Inadequate monitoring of damaged parts sent to Operations for repair can cause
                                      Material Management to loose track of the parts and misstate the inventory balance.




                              Source: The analysis is based on the OIG's review of 24 BPDs and discussion with SAM Controls team, SAM SMEs, and business owners


                                                                                            20
                 Strategic Asset Management Program Controls Design Is Generally Sound, But Improvements Can Be Made
                                                        Report No. 105-2010

                                                                 EXHIBIT B
                                        OIG Analysis of SAM R1A Control Weaknesses and Recommendations
    Business
#   Area       Business Process       Control Weakness / Recommendation / Potential Adverse Effect                                                   Risk Level   Control Type     Impact
13 Materials  Manage Order            Control weakness:                                                                                                Medium       Detective     Operational
   Management                         No control documented to periodically review the Repair and Return Pool Stock
                                      Report to determine if sufficient quantities of materials are available for use.

                                      Recommendation:
                                      Document the control, and identify the frequency of the review and the user role
                                      responsible for performing the review.

                                      Potential adverse effect:
                                      Inadequate monitoring of available materials can potentially result in excess inventory
                                      levels or shortage of inventory causing delay in critical repairs thereby putting
                                      equipments out-of-service.

14 Materials  Manage Order            Control weakness:                                                                                                Medium     Configuration    Financial
   Management                         While the SAM program is configuring the system to achieve desired functionality, the
                                      control to appropriately configure repair and return movement types is not
                                      documented.

                                      Recommendation:
                                      Document and test the control to ensure that movement types are appropriately
                                      configured to post inventory value to appropriate General Ledger account.

                                      Potential adverse effect:
                                      Inventory is not recorded or is recorded incorrectly, thereby misstating inventory value
                                      in the General Ledger.




                              Source: The analysis is based on the OIG's review of 24 BPDs and discussion with SAM Controls team, SAM SMEs, and business owners


                                                                                            21
                 Strategic Asset Management Program Controls Design Is Generally Sound, But Improvements Can Be Made
                                                        Report No. 105-2010

                                                                 EXHIBIT B
                                        OIG Analysis of SAM R1A Control Weaknesses and Recommendations
    Business
#   Area       Business Process       Control Weakness / Recommendation / Potential Adverse Effect                                                   Risk Level   Control Type    Impact
15 Materials   Manage Warehouse       Control weakness:                                                                                                Medium       Process       Financial
   Management/                        No control to ensure that reconciliation between physical and book inventory is
   Operations                         completed within a defined time period, and the exceptions are supported by
                                      appropriate rationale.

                                      Recommendation:
                                      Implement and document the control, and identify the user role responsible for
                                      performing the review. Prior audit report # 217-2008 "Annual Maintenance of Way
                                      Inventory" issued by the OIG recommended that reconciliation between physical and
                                      book inventory be completed within 14 calendar days.

                                      Potential adverse effect:
                                      Keeping the reconciliation window open for an extended period of time may result in
                                      inappropriate modification of recorded counts of physical inventory and incorrect
                                      inventory valuation, and increases the risk of undetected inventory loss or theft.

16 Materials   Manage Warehouse       Control weakness:                                                                                                Medium       Process      Operational
   Management/                        No control to ensure materials received from vendors do not remain in quality
   Operations                         inspection status for extended period of time.

                                      Recommendation:
                                      Implement and document the control to periodically review the materials in quality
                                      inspection status. Identify the frequency of the review and the user role responsible for
                                      performing the review.

                                      Potential adverse effect:
                                      Materials requiring quality assurance, if remained in quality inspection status for
                                      extended periods of time, can delay the maintenance work due to unavailability of
                                      inventory.




                              Source: The analysis is based on the OIG's review of 24 BPDs and discussion with SAM Controls team, SAM SMEs, and business owners


                                                                                            22
                   Strategic Asset Management Program Controls Design Is Generally Sound, But Improvements Can Be Made
                                                          Report No. 105-2010

                                                                   EXHIBIT B
                                          OIG Analysis of SAM R1A Control Weaknesses and Recommendations
    Business
#   Area         Business Process       Control Weakness / Recommendation / Potential Adverse Effect                                                   Risk Level   Control Type    Impact
17 Procurement   Manage Award           Control weakness:                                                                                                Medium       Process      Operational
                                        No control documented to periodically review the Purchase Orders that are open
                                        beyond the promised delivery date to help expedite the delivery of materials for
                                        business needs.

                                        Recommendation:
                                        Document the control, and identify the frequency of the review and the user role
                                        responsible for performing the review.

                                        Potential adverse effect:
                                        Materials not available on timely basis can significantly disrupt business operations.

18 Mechanical    Execute and Record     Control weakness:                                                                                                Medium       Detective    Operational
                 Technical and          The work order status is changed to 'Closed' in Spear after Mechanical project or
                 Resource Data          repair work is completed and reviewed by the supervisor. Control is not defined to
                                        periodically review open purchase requisitions related to 'Closed' work orders in Spear
                                        to determine if they need to be kept open for other work orders or be deleted.

                                        Recommendation:
                                        Implement and document the control. Identify the frequency of the review and the user
                                        role responsible for performing the review.

                                        Potential adverse effect:
                                        Amtrak may make unnecessary purchases on closed work orders if requisitions are not
                                        deleted on timely basis.




                                Source: The analysis is based on the OIG's review of 24 BPDs and discussion with SAM Controls team, SAM SMEs, and business owners


                                                                                              23
                  Strategic Asset Management Program Controls Design Is Generally Sound, But Improvements Can Be Made
                                                         Report No. 105-2010

                                                                  EXHIBIT B
                                         OIG Analysis of SAM R1A Control Weaknesses and Recommendations
    Business
#   Area        Business Process       Control Weakness / Recommendation / Potential Adverse Effect                                                   Risk Level   Control Type     Impact
19 Mechanical   Execute and Record     Control weakness:                                                                                                Medium     Configuration   Operational
                Technical and          Open work orders that are no longer needed and have no transaction activity associated
                Resource Data          with them are 'Cancelled' in Spear. Control is not defined to delete purchase
                                       requisitions related to 'Cancelled' work orders in Spear.

                                       Recommendation:
                                       Implement, document and test the control to automatically delete purchase requisitions
                                       related to 'Cancelled' work orders in Spear.

                                       Potential adverse effect:
                                       Amtrak may make unnecessary purchases on cancelled work orders if requisitions are
                                       not deleted on timely basis.

20 Mechanical   Execute and Record     Control weakness:                                                                                                Medium       Process       Operational
                Technical and          Control is not defined to ensure that alternate source of supply is identified before
                Resource Data          working part from one equipment is removed to repair another equipment.

                                       Recommendation:
                                       Implement and document the control.

                                       Potential adverse effect:
                                       Removing parts is a more costly process than using inventory stock and increases
                                       maintenance personnel costs. It can result in breakage during the removal process, and
                                       cause delays in bringing the originally working equipment back in service.




                               Source: The analysis is based on the OIG's review of 24 BPDs and discussion with SAM Controls team, SAM SMEs, and business owners


                                                                                             24
                    Strategic Asset Management Program Controls Design Is Generally Sound, But Improvements Can Be Made
                                                           Report No. 105-2010

                                                                    EXHIBIT B
                                           OIG Analysis of SAM R1A Control Weaknesses and Recommendations
    Business
#   Area         Business Process        Control Weakness / Recommendation / Potential Adverse Effect                                                   Risk Level   Control Type     Impact
21 Mechanical    Execute and Record      Control weakness:                                                                                                Medium     Configuration   Operational
                 Technical and           Control is not defined to create corrective work orders in Spear for the missing
                 Resource Data           components that were taken out from the original equipment (cannibalized equipment)
                                         to repair another equipment.

                                         Recommendation:
                                         Implement, document and test the control to automatically create corrective work
                                         orders in Spear.

                                         Potential adverse effect:
                                         Working parts removed from one equipment to repair another equipment may result in
                                         costly procurements, increased maintenance personnel costs, breakage during removal
                                         process, and delays in bringing the originally working equipment back in service.

22 Engineering   Feedback and Follow- Control weakness:                                                                                                   Medium       Detective     Operational
                 up                   The work order status is changed to 'Complete' (COMP) in Maximo after Engineering
                                      project or repair work is completed and reviewed by the supervisor. Work order status
                                      changes from 'WCOMP' to 'COMP' only after the work is completed and all pending
                                      transactions such as material and labor are entered in Maximo. Once work order is
                                      completed, all open material reservations on that work order are automatically
                                      canceled. However, no control exists to ensure that work orders in 'WCOMP' status
                                      are periodically reviewed and appropriate actions taken to move them to 'COMP' status
                                      in a reasonable time period.

                                         Recommendation:
                                         Identify the time period by which work orders in 'WCOMP' status should be moved to
                                         'COMP' status. Implement and document the control. Identify the frequency of the
                                         review and the user role responsible for performing the review.

                                         Potential adverse effect:
                                         Open, completed work orders reserve unused inventory that can be used on other work
                                         orders. This may cause Amtrak to procure unnecessary materials.




                                 Source: The analysis is based on the OIG's review of 24 BPDs and discussion with SAM Controls team, SAM SMEs, and business owners


                                                                                               25
                    Strategic Asset Management Program Controls Design Is Generally Sound, But Improvements Can Be Made
                                                           Report No. 105-2010

                                                                        EXHIBIT B
                                               OIG Analysis of SAM R1A Control Weaknesses and Recommendations
    Business
#   Area          Business Process           Control Weakness / Recommendation / Potential Adverse Effect                                                   Risk Level   Control Type   Impact


    Risk Level:   High | Medium              Risk levels are determined based on the combined factor of likelihood and impact of control failure.

    Type:         Configuration              Controls to ensure that the application is set up appropriately to achieve the required functionality.
                  Sensitive Access           Controls to ensure that sensitive business transactions are accessed only by authorized individuals.
                  Detective                  Controls designed to detect errors and irregularities that could not be prevented, but can be rectified.
                  Process                    Controls to ensure that manual business processes are designed correctly to provide desired outputs.

    Impact:       Financial                  Adverse effect of control not in place will impact accuracy and completeness of financial statements.
                  Operational                Adverse effect of control not in place will impact efficiency and effectiveness of business processes.




                                     Source: The analysis is based on the OIG's review of 24 BPDs and discussion with SAM Controls team, SAM SMEs, and business owners


                                                                                                   26
    Strategic Asset Management Program Controls Design Is Generally Sound, But
                           Improvements Can Be Made
                               Report No. 105-2010

                                 EXHIBIT C
                                  Acronyms
                                        ms

Acronym

BPD                     Business Process Definition
DOT                     Department of Transportation
ERP                     Enterprise Resource Planning
FIS                     Financial Information System
KPI                     Key Performance Indicator
LMS                     Labor Management System
OIG                     Amtrak Office of Inspector General
PRIIA                   Passenger Rail Investment and Improvement Act
R1a                     Release 1a
SAM                     Strategic Asset Management
SAP                     Systems Applications and Products
SME                     Subject Matter Expert




                                        27
      Strategic Asset Management Program Controls Design Is Generally Sound, But
                             Improvements Can Be Made
                                 Report No. 105-2010

                                    EXHIBIT D
                                Audit Team Members

This report was prepared and the review was conducted under the direction of Vipul Doshi,
Senior Director, IT Audits.

The staff members who conducted the audit and contributed to the report include:


Vijay Chheda, IT Audit Manager
Asha Sriramulu, Senior IT Audit Specialist
Mike Baker, Senior IT Audit Specialist




                                              28
 Strategic Asset Management Program Controls Design Is Generally Sound, But
                        Improvements Can Be Made
                            Report No. 105-2010

                               EXHIBIT E
                           Management Response


Memo
 Date   January 3, 2011                         From     DJ Stadtler, Chief Financial Officer

  To    David Warren, Assistant            Department    Finance
        Inspector General, Audit
                                               Subject   Strategic Asset Management
                                                         Program Controls Design is
                                                         Generally Sound, But
                                                         Improvements Can Be Made
                                                         Report 105-2010

                                                   cc    Jeff Martin, Chief Logistics Officer
                                                         Frank Vacca, Chief Engineer
                                                         Mario Bergeron, CMO
                                                         Kay Duggan, GIO-ERP
                                                         Don Ford, Senior ERP Director
                                                         Jessica Scritchfield, Principal Audit
                                                         / Controls Officer


        This letter is in response to the Office of Inspector General (“OIG”) audit 105-
        2010 “Strategic Asset Management Program Controls Design Is Generally
        Sound, But Improvements Can Be Made”, dated December 2, 2010.

        Management agrees with the recommendations within this report and believes
        this report provides useful information on which Amtrak management can take
        action. Management has detailed a response to each of the OIG’s
        recommendations below.


        Recommendation 1a:

        Prior to the April 2011 SAM R1a implementation, address the control
        weaknesses to mitigate financial and operational risk identified in the report
        related to the SAM R1a implementation (detailed in Exhibit B).


                                          29
Strategic Asset Management Program Controls Design Is Generally Sound, But
                       Improvements Can Be Made
                           Report No. 105-2010


     Management Response:

     Management agrees with the OIG’s observation and recommendation. The
     Finance, Procurement, Materials Management, Mechanical, and Engineering
     departments will take action to reevaluate and update the business process
     documents to include controls that will mitigate financial and operational risks
     identified in the OIG report. Specifically, the individuals responsible and the
     date by which the documents will be updated are detailed below:

           Gordon Hutchinson, Controller, will be responsible for Finance business
            process documents by February 25, 2011.

           Bud Reynolds, Deputy Logistics Officer – Procurement, will be
            responsible for Procurement business process documents by February 25,
            2011.

           Bob Nanney, Deputy – Materials Management, will be responsible for
            Materials Management business process documents by February 25,
            2011.

           Tim Ziethen, Senior Subject Matter Expert – Mechanical, will be
            responsible for Mechanical process documents by March 25, 2011.

     The control weakness identified relating to the Engineering department has been
     remediated. Management forwarded an updated business process document
     reflecting this to the OIG on December 21, 2010.


     Recommendation 1b:

     Prior to the April 2011 SAM R1a implementation, reevaluate the other 115
     business process documents to determine and implement the automated controls
     to address financial and operational risks similar to the issues we identified that
     need to be addressed in SAP, PowerPlant, Maximo, Ariba, and Spear.

     Management Response:

     Management agrees with the OIG’s observation and recommendation.
     Management will reevaluate the other 115 business process documents for
     automated controls that address the financial and operational risks similar to the
     issues identified in Finding 1a that need to be addressed in SAP, PowerPlant,
     Maximo, Ariba, and Spear. Specifically, the individuals responsible and the date



                                        30
Strategic Asset Management Program Controls Design Is Generally Sound, But
                       Improvements Can Be Made
                           Report No. 105-2010

     by which the documents will be updated are detailed below:

           Gordon Hutchinson, Controller, will be responsible for the Finance
            business process documents and identification and documentation of
            controls relating to PowerPlant by March 25, 2011.

           Bud Reynolds, Deputy Logistics Officer – Procurement, and John
            Venturella, Procurement IT Business Lead, will be responsible for the
            Procurement business process documents and identification and
            documentation of controls relating to Ariba by March 25, 2011.

           Bob Nanney, Deputy – Materials Management, and Frank Hopkins,
            Materials Management IT Lead, will be responsible for the Materials
            Management business process documents by March 25, 2011.

           Tim Ziethen, Senior Subject Matter Expert – Mechanical, will be
            responsible for the Mechanical business process documents and
            identification and documentation of controls relating to Spear by March
            25, 2011.

           Ed Simons, Senior Director – Budgeting and Planning, Willem Ebersöhn,
            Business Area Lead SAM, and Bill Broughton, Senior Program Director
            Engineering Systems, will be responsible for Engineering business
            process documents and identification and documentation of controls
            relating to Maximo by March 25, 2011.

     Executive Committee members, in coordination with Finance’s Internal Controls
     / Audit organization, will provide oversight to ensure project deadlines are met.
     Management does have some concerns about resource constraints, and is
     exploring various options, both internal and external, that may be leveraged to
     perform these evaluations and recommendations.


     Recommendation 2a:

     After SAM R1a is implemented, for new capability, evaluate all 139 business
     process documents to determine and implement the manual controls to address
     financial and operational risks in SAP, PowerPlant, Maximo, Ariba, and Spear.

     Management Response:

     Management agrees with the OIG’s observation and recommendation.
     Management will reevaluate all 139 business process documents for all manual



                                       31
Strategic Asset Management Program Controls Design Is Generally Sound, But
                       Improvements Can Be Made
                           Report No. 105-2010

     controls that address the financial and operational risks in SAP, PowerPlant,
     Maximo, Ariba, and Spear. Specifically, the individuals responsible and the date
     by which the documents will be updated are detailed below:

           Gordon Hutchinson, Controller, will be responsible for the Finance
            business process documents and identification and documentation of
            controls relating to PowerPlant by September 23, 2011.

           Bud Reynolds, Deputy Logistics Officer – Procurement, and John
            Venturella, Procurement IT Business Lead, will be responsible for the
            Procurement business process documents and identification and
            documentation of controls relating to Ariba by September 23, 2011.

           Bob Nanney, Deputy – Materials Management, and Frank Hopkins,
            Materials Management IT Lead, will be responsible for the Materials
            Management business process documents by September 23, 2011.

           Tim Ziethen, Senior Subject Matter Expert – Mechanical, will be
            responsible for the Mechanical business process documents and
            identification and documentation of controls relating to Spear by
            September 23, 2011.

           Ed Simons, Senior Director – Budgeting and Planning, Willem Ebersöhn,
            Business Area Lead SAM, and Bill Broughton, Senior Program Director
            Engineering Systems, will be responsible for Engineering business
            process documents and identification and documentation of controls
            relating to Maximo by September 23, 2011.

     Executive Committee members, with coordination from Finance’s Internal
     Controls / Audit organization, will provide oversight to ensure project deadlines
     are met. As with recommendation 1b, management does have some concerns
     about resource constraints, and is exploring various options, both internal and
     external, that may be leveraged to perform these reviews and make
     recommendations.


     Recommendation 2b:

     After SAM R1a is implemented, for current capability, review automated and
     manual controls in i) key systems impacted by SAM; i.e. SAP, Ariba, Spear and
     Maximo and ii) other relevant existing systems such as SupplyPro and Labor
     Management System (LMS) that interface with SAP. Identify gaps and develop
     and document the missing controls to ensure that critical financial and



                                       32
Strategic Asset Management Program Controls Design Is Generally Sound, But
                       Improvements Can Be Made
                           Report No. 105-2010

     operational risks are addressed.

     Management Response:

     Management agrees with the OIG’s observation and recommendation.
     Management will review the automated and manual controls in Ariba, Spear,
     Maximo, SupplyPro, and Labor Management System (LMS) that interface with
     SAP by September 23, 2011. Management will identify the gaps and develop
     and document missing controls to ensure critical financial and operational risks
     are addressed. Business process owners and the IT department will be
     responsible for determining that controls are in place for the systems that are
     impacted by the SAM program, with coordination by Finance’s Internal Controls
     / Audit organization.


     Recommendation 2c:

     Build a comprehensive Risk and Control matrix to ensure segregation of duties
     between multiple applications, such as SAP, Maximo, and Ariba.

     Management Response:

     Management agrees with the OIG’s observation and recommendation.
     Management is currently evaluating the alternatives available to ensure
     segregation of duties exist between multiple applications. DJ Stadtler, Chief
     Financial Officer, in collaboration with the Information Technology department
     will determine which systems should be in scope, review the alternatives, make a
     recommendation to resolve the risks, evaluate available funding sources, and
     commit to an implementation timeline by January 31, 2011.




                                        33
    Strategic Asset Management Program Controls Design Is Generally Sound, But
                           Improvements Can Be Made
                               Report No. 105-2010

                              EXHIBIT F
                  OIG Mission and Contact Information

Amtrak OIG’s Mission       The Amtrak OIG’s goals and perceptions of how it can best
                           affect the OIG’s mission, as spelled out in the Inspector
                           General Act of 1978, as amended:

                             Conduct and supervise independent and objective audits
                              inspections, evaluations, and investigations relating to
                              agency programs and operations;
                            Promote economy, effectiveness and efficiency within
                              Amtrak and the OIG;
                            Prevent and detect fraud, waste and abuse in Amtrak
                              programs and operations;
                            Review security and safety policies and programs;
                            Make recommendations regarding existing and proposed
                              legislation and regulations relating to Amtrak's programs
                              and operations; and
                            Keep the head of Amtrak and Congress fully and currently
                              informed of problems in company programs and
                              operations.
Obtaining Copies of OIG    To obtain copies of OIG documents at no cost, go to Amtrak
Reports and Testimonies    OIG’s Web site (www.amtrakoig.gov).
To Report Fraud, Waste,    Help prevent fraud, waste, and abuse by reporting suspicious
and Abuse                  or illegal activities to the OIG Hotline:

                             Web:      https://www.amtrakoig.gov/hotline
                             Phone: (800) 468 5469
Congressional Affairs      E. Bret Coulson
                           Assistant Inspector General for Management and Policy
                             Mail:      Amtrak OIG
                                        10 G Street, N.E.
                                        Drop Box: 3W-159
                                        Washington, DC 20002
                             Phone:     (202) 906 4134
                             Email:     coulsob@amtrak.com




                                        34
